No.

In The Supreme Court of
the United States of America

MICHAEL RAMON OCHOA,
Petitioner, pro se,
v.
Dr. Arthur Levine, et al
Respondents.
M

PROOF OF SERVICE
I, Michael Ramon Ochoa, do swear and declare that on or before November 07,
2020, as required by U. S. Supreme Court Rule 29,1 served the enclosed petition for
writ of certiorari and appendix on counsel for the parties to the above proceeding, and
on every other person required to be served, by depositing an envelope containing the
above documents properly addressed to each of them and with first-class or priority
postage pre-paid, at the following addresses:
Clerk of the Court Scott S. Harris
Supreme Court of the United States
1 First Street, N. E.
Washington, DC 20543-0001
Deputy Prothonotary John Vaskov, Esq.
Pa. Supreme Court
801 City-County Building
414 Grant St.
Pittsburgh, PA 15219

^

Deputy Prothonotary Bobbi Jo Wagner, Esq.
Pa. Superior Court
Office of Prothonotary
310 Grant Street, Suite 600
Pittsburgh, PA 15219
lof 5

Director Michael McGeever,
Allegheny County Department of Court Records
414 Grant Street, First Floor
Pittsburgh, PA 15219
412-350-5729
Judge Robert J. Colville
Civil/Commerce and Complex Litigation Center
815 City-County Building
414 Grant Street
Pittsburgh, PA 15219
Judge Christine A. Ward
Civil/Commerce and Complex Litigation Center
820 City-County Building
414 Grant Street
Pittsburgh, PA 15219
Emeritus Judge R. Stanton Wettick, jr.
Civil/Commerce and Complex Litigation Center
820 City-County Building
414 Grant Street
Pittsburgh, PA 15219
Counsel for Defendants 2. 3. 4. 6. 7. 8. 9.14.15.16.17.18.19. 20. 22
Justin M. Gottwald, Pa.I.D. #92847
Katelin J. Montgomery Pa. I.D. #322698
Rebecca Good McBride Pa. I.D. #90623
Steven L. Ettinger Pa. I.D. #316266
Dickie, McCamey & Chilcote, P.C. Pa. firm #067
Two PPG Place, Suite 400
Pittsburgh, PA 15222
Counsel for Defendants 23. 24. 25
Scott G. Dunlop, Pa. I.D. #41638
Grant H. Hackley, Pa. I.D. #206141
Marshall Dennehey Warner Coleman & Goggin
501 Grant Street, Suite 700
Pittsburgh, PA 15219

2 of 5

Counsel for Defendants 10. 11.12.13
David S. Pollock, Esquire, PA I.D. #19902
Brian C. Vertz, Esquire, PA I.D. #064822
Benjamin E. Orsatti, PA I.D. #93092
Pollock Begg Komar Glasser & Vertz, LLC, PA Firm #419
525 William Penn Place, Suite 3501
Pittsburgh, PA 15219
Pro Se Defendants 1. 5. 21
Dr. Erin Rubin
1575 Fillmore St.
Denver, CO 80206
Dr. Erin Rubin
% University of Oklahoma General Counsel Anil V. Gollahalli
The University of Oklahoma Health Sciences Center
1100 N. Lindsay, Oklahoma City, OK 73104
Dr. Erin Rubin
% University Counsel and Secretary of the Board of Regents Jose Padilla
University of Colorado, Denver
1800 Grant St., Suite 800
Campus Box 35 UCA
Denver, CO 80203
Dr. Duane G. Spiker
3811 O'Hara Street
Pittsburgh, PA 15213
Dr. Duane G. Spiker
5614 Northumberland
Pittsburgh, PA 15217
Dr. Tong Wu %
President Michael A. Fitts
Tulane University
6823 St. Charles Avenue
New Orleans, LA 70118

3 of 5

Courtesy Copies
U.S. Attorney General William P. Barr
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Acting Assistant Attorney General Brian C. Rabbitt
U. S. Department of Justice
Criminal Division
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
U. S. Atty. Western Dist. of Pa. Scott W. Brady
U. S. Post Office & Courthouse
700 Grant Street, Suite 4000
Pittsburgh, PA 15219
Senator Charles Grassley
135 Hart Senate Office Building
Washington, D.C. 20510-1501
Founding Director David Hickton
University of Pittsburgh Institute for Cyber Law, Policy and Security
4200 Fifth Avenue
2516 Cathedral of Learning
Pittsburgh, PA 15260
Special Agent in Charge Michael A. Christman
F.B.I. Pittsburgh
3311 East Carson St.
Pittsburgh, PA 15203
Principal Deputy Inspector General Christi A. Grimm
U.S. Department of Health and Human Services
330 Independence Avenue, S.W.
Washington, D.C. 20201
Disciplinary Counsel-in-Charge James M. Fox, Esq.
Disciplinary Board of the Supreme Court of Pa. Dist. IV.
437 Grant Street
Frick Building, Ste. 1300
Pittsburgh, PA 15219

4 of 5

<9

Deputy Attorney General Jeffrey A. Rosen
U. S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
President Donald J. Trump
The White House
1600 Pennsylvania Avenue NW
Washington, DC 20500
Pa. Atty. General Josh Shapiro
Strawberry Square, 16th Floor
Harrisburg, PA 17120
Governor Tom Wolf
225 Main Capitol Building
Harrisburg, PA 17120
Director Christopher A. Wray
F.B.I. Headquarters
935 Pennsylvania Avenue, NW
Washington, D.C. 20535-0001
Allegheny County District Attorney
Stephen A. Zappala, jr.
Room 303 Courthouse
436 Grant Street
Pittsburgh, PA 15219
I declare under penalty of perjury that the foregoing is true and correct.1

Michael Ramon Ochoa,
Petitioner, pro se
58 West Portal Ave #218
San Francisco, CA 94127
(415) 373-2172
michaelochoa@mac.com
Date: November 07, 2020
1 Additional email service listed in the Root Data at https://www.dropbox.com/sh/8r8kzqa5wz2zrbp/
AAC_J-wDwS55eRufMhic391ea?dl=Q
5 of 5

